           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



      WORKLOAD ACTIVITY AT
       FIVE HEARING OFFICES
            IN REGION IV

  September 2007    A-12-07-27091




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      September 10, 2007                                                               Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Workload Activity at Five Hearing Offices in Region IV (A-12-07-27091)


           OBJECTIVE

           Our objective was to determine whether claims are assigned to Administrative Law
           Judges (ALJ) in accordance with the Office of Disability Adjudication and Review
           (ODAR) policy.

           BACKGROUND
           The Social Security Act 1 requires the Commissioner of the Social Security
           Administration (SSA) to provide a claimant with reasonable notice and opportunity for a
           hearing. The claimant may appoint an attorney or other qualified individual to obtain
           and present evidence on his or her behalf at the hearing. The Commissioner has
           delegated to ALJs the authority to hold hearings and issue decisions. Within each
           hearing office, the Hearing Office Chief Administrative Law Judge (HOCALJ), under the
           delegation of ODAR’s Chief Administrative Law Judge (CALJ), has the authority to
           assign cases to ALJs on a rotational basis as stipulated by ODAR’s Hearings, Appeals
           and Litigation Law (HALLEX) manual. 2

           We received information that not all of the hearing offices in Region IV were adhering to
           ODAR’s rotational policy. To verify this information, we analyzed final disposition
           records over a 25-month period that contained ALJ, claimant representative and claim
           history information from five hearing offices 3 in Region IV. We also interviewed
           ODAR’s


           1
               Social Security Act [42, U.S.C 405] § 205(b), 1631(c) (1935).
           2
               HALLEX I-2-1-55: Assignment of Service Area Cases to Administrative Law Judges.
           3
            The hearing offices were similar in size, had similar number of dispositions over a 25-month review
           period (June 2004 through July 2006), and were all located in Region IV. The hearing offices were:
           Atlanta (downtown), Georgia; Jacksonville, Florida; Fort Lauderdale, Florida; Mobile, Alabama; and
           Orlando, Florida.
Page 2 - The Commissioner

CALJ and ODAR’s Region IV Management Team, as well as ALJs, managers and
office support staff at the five hearing offices. See Appendix B for a further discussion
of our scope and methodology.

RESULTS OF REVIEW
We found that over a 6-year period, the Fort Lauderdale HOCALJ did not follow
ODAR’s policy of assigning claims to ALJs on a rotational basis. Instead, the HOCALJ
has operated a “pilot” program (Pilot) that has allowed him to hear claims from selected
representatives. We found the Pilot had no documented goals, objectives or measures
for success. In addition, the HOCALJ has operated the Pilot without approval or
knowledge of its existence by ODAR's Headquarters and Region IV managers.
Moreover, only a few representatives participate in the Pilot and the HOCALJ heard
most of the Pilot claims. Consequently, four representatives had over 50 percent of
their caseloads with the HOCALJ, far beyond the anticipated rate under a rotational
policy. An independent assessment of the Pilot will be necessary to determine its role
in the Fort Lauderdale Hearing Office’s productivity and overall merit.

ODAR’S ROTATIONAL POLICY

Unlike the other four hearing offices we reviewed, the Fort Lauderdale Hearing Office
was not following ODAR’s rotational policy for assigning cases to ALJs. The HOCALJ
created a pilot program where a limited number of selected representatives brought
cases before him.

Current Policy

ODAR’s CALJ and ODAR’s Regional Chief Administrative Law Judge (RCALJ) for
Region IV confirmed that all hearing offices must follow the rotational policy as stated in
HALLEX. The CALJ said the HALLEX rotational policy is based on the Administrative
Procedures Act 4 and that the rotational policy benefits the claimants. 5 The RCALJ
stated that the rotational policy is necessary to:

      •   ensure the appearance of fairness in that there is no pre-selection of ALJs by the
          claimant and/or his or her representative;
      •   distribute the workload evenly, thereby improving hearing office efficiency;
      •   adhere to the Agency’s policy of public service; and
      •   keep up office morale.




4
    Administrative Procedures Act, 5 U.S.C., Subchapter II, § 556 (1946).
5
    We did not independently assess the merits of a rotational policy in this review.
Page 3 - The Commissioner

The 11 Judges (5 HOCALJs and 6 ALJs) we interviewed had similar understandings
about the rotational policy. They stated that having a rotational policy:

    •   creates a sense of fairness for the ALJs;
    •   prevents claimants or representatives from shopping for a particular ALJ;
    •   ensures that claimants are treated fairly; and
    •   prevents ALJs from picking and choosing claims based on the representative.

Pilot Program

The Fort Lauderdale HOCALJ suspended ODAR’s policy of assigning cases to ALJs on
a rotational basis as part of a Pilot that he created and has operated for the past
6 years without the knowledge or approval of the RCALJ. In our review of the other four
hearing offices in Region IV, we found that all of these offices followed the HALLEX
policy regarding case rotation.

To participate in the Pilot, the claimants and their representatives agreed to:

    •    waive the 20-day Advanced Notice of Hearing;
    •
                                                         6
         present the case to the HOCALJ as unpulled; and
    •    write and present the favorable decision 7 to the hearing office. 8

The HOCALJ selected the representatives who could participate in the Pilot. 9 If the
claim had a representative participating in the Pilot, it was assigned from the Master




6
  “Pulling” is the term hearing offices use when organizing documents in a claim folder before the hearing.
Hearing office technicians are primarily responsible for organizing and exhibiting the claimant’s information
in the claim folder. For unpulled claims, the claimant’s information is not organized into categories or
placed in chronological order and an Exhibit List is not prepared. Therefore, hearing office technicians’
time is not spent organizing information in the claim folder.
7
  Outside assistance with decision writing is not unique to the Pilot. ODAR allows claimants and their
representatives to assist with the writing of favorable decisions (see HALLEX I-2-8-13: Use of Language
Supplied by Claimants and Representatives in Preparation of Fully Favorable Decisions). If the decision
is not favorable, either the ALJ or a Decision Writer will write the decision.
8
 To improve the quality of the decisions submitted by the representatives, ODAR has placed their
Findings Integration Templates on SSA’s internet. The templates are a decision-writing tool designed to
improve the quality and consistency of ODAR decisions and includes about 1,700 templates.
9
  The Pilot began with about 20 representatives. However, some representatives later dropped out on
their own and others were asked to leave by the HOCALJ. The HOCALJ stated that he asked some
representatives to drop out because they could not keep up with the pace of writing the favorable
decisions.
Page 4 - The Commissioner

Docket 10 to either the HOCALJ, or occasionally, to another ALJ in the hearing office. 11
Claims not in the Pilot were assigned to the remaining ALJs in the hearing office on a
rotational basis.

When we met with the HOCALJ to discuss the Pilot, he was unable to provide
documentation regarding the objectives, goals, and initial approvals related to the Pilot.
What we did learn about this Pilot came from our interviews with the HOCALJ and the
Hearing Office Director (HOD), as well as an email from July 2001 listing some of the
representatives chosen for the Pilot. We also learned that the Pilot is being conducted
without approval or knowledge of its existence by ODAR's Headquarters or Region IV
Managers. In addition, we found no evidence that an evaluation had been conducted to
assess the strengths and weaknesses of the Pilot.

In terms of workload, we found that the HOCALJ and another ALJ held the vast majority
                       12
of the Pilot hearings. While we were unable to calculate the precise number of
             13                                    14
dispositions that were decided under this Pilot, we found that the HOCALJ and one
other ALJ decided a total of 2,722 cases of Fort Lauderdale's 10,474 dispositions
                            15
during a 25-month period. Assuming not every case heard by the two individuals
related to the Pilot, we estimate that the Pilot accounted for between 17 and 26 percent
of Fort Lauderdale's total dispositions during this 25-month period.

HEARING OFFICE WORKLOADS

The Pilot program in Fort Lauderdale appears to have led to high production on the part
of the HOCALJ. However, without an independent assessment of the Pilot it is difficult
to determine its impact on the Fort Lauderdale Hearing Office workload and its overall
merit. We also determined that some representatives appeared before the
Fort Lauderdale HOCALJ for the majority of their cases, which could be perceived as
an unfair advantage for these representatives.

10
  Hearing offices maintain a Master Docket system which contains all requests for hearings and
remanded claims. Master Docket status is the initial step in the hearing process. For a discussion on the
hearing office processing stages, see SSA/Office of the Inspector General report, Management’s Use of
Workload Status Reports (A-12-06-26130), March 2007.
11
   The HOCALJ hears cases in both the Fort Lauderdale hearing office and the West Palm Beach remote
site. He usually hears cases at the remote site 3 days per week and at the hearing office the other 2 days.
12
   When we discussed this lack of participation with other ALJs, we found that some of them did not
participate in the pilot because they do not like to hear unpulled cases. In such cases, the claimant's
information is not organized in the claim folder and the ALJ must take time to sift through the
documentation to find the evidence.
13
  Dispositions are defined as the number of hearing requests processed, including favorable and
unfavorable decisions issued, as well as requests that are dismissed.
14
     ODAR’s Case Processing Management System does not uniquely identify Pilot cases.
15
     The HOCALJ heard 1,744 cases during this period, and the ALJ heard another 978 cases.
Page 5 - The Commissioner

Productivity

Of the 53 HOCALJs and ALJs in our review, the Fort Lauderdale HOCALJ 16 had the
most dispositions (1,744) during the 25-month period. According to ODAR executives,
dispositions per day per ALJ is a key criteria for analyzing hearing office productivity.
The next highest number of dispositions was by an ALJ in the Orlando Hearing Office
who had 1,638 dispositions. In terms of other HOCALJs, the next highest disposition
total during this period was 1,335. The range for all 53 HOCALJs and ALJs was a low
of 405 dispositions 17 to a high of 1,744 dispositions. See Appendix C for productivity
data on the five hearing offices.

Another key indicator of hearing office productivity is average processing time. The
Fort Lauderdale HOCALJ had an average processing time of 450 days on his
dispositions, or the 16th best rate among the HOCALJs and ALJs in our review. 18 The
range in average processing time for the 53 HOCALJs and ALJs was a low of 369 days
                       19
to a high of 800 days. ODAR’s national average processing time for FY 2005 was
442 days.

We were unable to determine if the Fort Lauderdale HOCALJ’s productivity was directly
related to the Pilot program. Only an independent assessment of the Pilot itself would
provide the necessary information to make this determination.

Representative Ratios

Since so few representatives were participating in the Pilot, some representatives
appeared before the HOCALJ an inordinate amount of time. We found that four
representatives had more than 50 percent of their cases with the HOCALJ. The highest




16
  A HOCALJ has more day-to-day responsibilities than an ALJ working. In addition to hearing cases, the
HOCALJ is directly responsible for all program and administrative matters concerning SSA’s hearing
process in the hearing office. The HOCALJ is the first-line supervisor to ALJs, the Supervisory Staff
Attorney and the Hearing Office Director.
17
   The median was 891 dispositions. Because some ALJs were assigned to the hearing offices for a
limited time period on detail assignments, we limited our scope to include only those ALJs who were
assigned to the hearing office on a full-time basis with at least 400 dispositions during the 25-month
period.
18
  Processing time is defined as the average elapsed time, from the hearing request date until the date of
the notice of the decision, of all hearing-level cases processed.
19
     The median processing time was 502 days.
Page 6 - The Commissioner

rate related to Representative #1, with 85 percent (137 of 161 claims) of his cases
before the HOCALJ (see the Figure below). We found no similar statistics among the
other 4 HOCALJs in the same region or among the other 48 ALJs in the 5 hearing
offices. If claims were assigned on a rotational basis, the percentage of any
representative’s caseload would be expected to be evenly distributed among the ALJs
in the hearing office. In the case of Fort Lauderdale with 12 ALJs, this would mean that
roughly 1 of every 12 cases, or about 8 percent, would be assigned to the HOCALJ.

                                                     Claimant Representative’s Workload
                                                     Percent of Claims Heard before the HOCALJ
                                                           (June 2004 through July 2006)

                                                             Rep #1
                                        90%                               Rep #2

                                        80%
      Percent of Cases Before HOCALJ




                                                                                       Rep #3
                                        70%                                                        Rep #4
                                        60%
                                        50%
                                        40%
                                        30%
                                        20%
                                        10%
                                         0%
                                                        Representatives in Fort Lauderdale Pilot

In addition, we found the HOCALJ’s approval rate was higher for these four
representatives than his overall approval rate (see the Table below). While the average
approval rate was 60 percent among all the HOCALJ’s cases, we found his approval
rate averaged about 76 percent for these four representatives. While this could be
caused by a number of variables, it could also lead to concern about fairness among
representatives not allowed to participate in the Pilot if it appears that more frequent
participation before the HOCALJ increases the chances of an allowance.

                                       HOCALJ’s Approval Rate for Four Claimant Representatives in Pilot
                                                           (June 2004 through July 2006)
                                                        Number of            Number of
                                                       Approvals by       Disallowances by            HOCALJ’s Approval
    Representative                                       HOCALJ               HOCALJ                 Rate by Representative
 Representative #1                                          95                          42                   69.3
 Representative #2                                         219                          62                   77.9
 Representative #3                                          79                          17                   82.3
 Representative #4                                          79                          30                   72.5
 Total                                                     472                         151                  75.8%
Page 7 - The Commissioner

CONCLUSION AND RECOMMENDATIONS
Over the past 6 years, the Fort Lauderdale HOCALJ has not followed ODAR’s policy of
assigning claims to ALJs on a rotational basis. Instead, the HOCALJ created a Pilot
permitting him to hear claims from a select group of representatives. Furthermore, the
Pilot has no oversight by ODAR’s Headquarters or Region IV Managers and has not
been independently assessed to determine its merits. Until the Pilot is independently
assessed, we cannot determine its merits. It is possible that exceptions from the
rotational policy should be approved under certain circumstances. However, without
management buy-in and clear objectives and goals, we do have concerns about the
overall perceptions of the operations in Fort Lauderdale since so few representatives
participate in the Pilot. The HOCALJ is assigned most of the Pilot claims, and some
representatives have a disproportionate share of hearings before the HOCALJ.

To improve management’s oversight of hearing office workloads and increase the
awareness of the Pilot program, we recommend SSA:

1. Provide increased oversight of the Fort Lauderdale Hearing Office and
   independently assess the office’s Pilot operations and results to determine if it
   should continue.

2. Determine if any other hearing offices suspended the rotational policy without
   knowledge or oversight from ODAR Headquarters or Regional Office Managers and
   take appropriate action to officially authorize or deny any exceptions to this policy.

3. Remind HOCALJs about their duties of assigning claims on a rotational basis unless
   an exception from official policy is properly authorized.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with all three recommendations. (See Appendix D for SSA’s comments.)




                                                Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Workload Statistics at the Five Hearing Offices in Region IV
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
ALJ      Administrative Law Judge
CALJ     Chief Administrative Law Judge
HALLEX   Hearings, Appeals and Litigation Law manual
HOCALJ   Hearing Office Chief Administrative Law Judge
HOD      Hearing Office Director
ODAR     Office of Disability Adjudication and Review
RCALJ    Regional Chief Administrative Law Judge
SSA      Social Security Administration
                                                                                   Appendix B

Scope and Methodology
To accomplish our review, we:

    •   Reviewed hearing office guiding principles and procedural guidance documented
        in Office of Disability Adjudication and Review’s (ODAR) Hearings, Appeals and
        Litigation Law manual.

    •   Reviewed prior Social Security Administration Office of the Inspector General
        reports.

    •   Compiled and analyzed disposition data over a 25-month period (June 2004
        through July 2006) at the Atlanta (downtown), Georgia; Fort Lauderdale, Florida;
        Jacksonville, Florida; Mobile, Alabama; and Orlando, Florida Hearing Offices in
        Region IV. 1 We reviewed relevant trends in the data, including Administrative
        Law Judge (ALJ) productivity and claimant representative ratios before the ALJs.

    •   Interviewed ODAR’s Chief ALJ, ODAR’s Region IV Management Team, ALJs,
        managers, and staff at the Atlanta (downtown), Jacksonville, Fort Lauderdale,
        Orlando, and Mobile Hearing Offices.
                             2
Based on prior audit work, we determined that the disability reports provided by ODAR
were sufficiently reliable to meet our objectives. The entity audited was the Office of
the Deputy Commissioner for Disability Adjudication and Review. We conducted our
audit from January 2007 through May 2007 in accordance with generally accepted
government auditing standards.




1
 Region IV consists of 31 hearing offices located in Alabama, Florida, Georgia, Kentucky, Mississippi,
North Carolina, South Carolina and Tennessee.
2
 SSA Office of the Inspector General, Case Processing and Management System and Workload
Management (A-12-06-26012), April 2006.
                                                                                                                                           Appendix C


Workload Statistics at the Five Hearing Offices in Region IV
We compiled and analyzed disposition data over a 25-month period (June 2004 through July 2006) at 5 hearing offices in Region IV
(see the Table below).
                                    Hearing Office Workloads at the Five Hearing Offices in our Review
                                                                                                             Average             Median
                                     Total          Total             Average              Median           Processing         Processing
        Hearing Office               ALJs1       Dispositions       Dispositions2       Dispositions       Time – Days4       Time – Days5
                                                                                               3

 Atlanta (downtown),
                                       11            7,167                652                725                716                  720
 Georgia
 Fort Lauderdale, Florida              12           10,474                873                902                485                  501
 Jacksonville, Florida                 14           11,105                793                850                569                  561
 Mobile, Alabama                       13           10,906                839                914                429                  429
 Orlando, Florida                      17           14,445                850                958                471                  517
 Totals                                67           54,097                807                902                518                  517
Note 1: Includes Administrative Law Judges (ALJ) and Hearing Office Chief ALJs. Fifty-three of the 67 ALJs had more than 400 dispositions during the
        25-month review period.
Note 2: Average dispositions represent total dispositions for the office during the 25-month period divided by the number of ALJs.
Note 3: Median dispositions is the point where half of the dispositions are below the median and half of the dispositions are above the median.
Note 4: Average processing time represents the average elapsed time, from the hearing request date until the date of the notice of the decision, of all
        hearing- level cases processed.
Note 5: Median processing time is the point where half of the processing time is below the median and half of the processing time is above the median.
                  Appendix D

Agency Comments
D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "WORKLOAD ACTIVITY AT FIVE HEARING OFFICES IN REGION IV”
(A-12-07-27091)

Thank you for the opportunity to review and provide comments on this draft report. Overall we
agree with the report’s findings and recommendations. Our responses to the specific
recommendations below describe actions we plan to take to address the issues identified at the
Fort Lauderdale Hearing Office.

Recommendation 1

The Social Security Administration (SSA) should provide increased oversight of the Fort
Lauderdale Hearing Office and independently assess the office’s Pilot operations and results to
determine if it should continue.

Comment

We agree. We are developing an action plan that provides for increased oversight of the Fort
Lauderdale Hearing Office. We will determine whether the Pilot operation should continue and
evaluate whether it should be expanded to other offices. We expect to have the plan in place by
September 30, 2007, with full implementation no later than March 31, 2008.

Recommendation 2

SSA should determine if any other hearing office suspended the rotational policy without
knowledge or oversight from Office of Disability Adjudication and Review Headquarters or
Regional Office Managers and take appropriate action to officially authorize or deny any
exceptions to this policy.

Comment

We agree. This recommendation will be addressed as part of the action plan referenced in
recommendation number 1.

Recommendation 3

SSA should remind Hearing Office Chief Administrative Law Judges (HOCALJs) about their
duties of assigning claims on a rotational basis unless an exception from official policy is
properly authorized.




                                               D-2
Comment

We agree. We will remind HOCALJs about assigning claims on a rotational basis unless a
policy exception is authorized. This recommendation also will be addressed as part of the action
plan referenced in recommendation number 1; however, we anticipate that an appropriate
reminder to the HOCALJs will occur sooner than the March 31, 2008 target date for full
implementation of the action plan.




                                              D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Philadelphia Audit Division, (215) 597-4080
   Michael Maloney, Audit Manager, Falls Church Office, (703) 578-8844

Acknowledgments

In addition to those named above:

   Nicholas Milanek, Auditor-in-Charge
   Shane Henley, Auditor
   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-12-07-27091.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
